<html>
<title> - ACADEMIC PERSPECTIVES ON THE FUTURE OF PUBLIC HOUSING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      ACADEMIC PERSPECTIVES ON THE

                        FUTURE OF PUBLIC HOUSING

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 111-69



                  U.S. GOVERNMENT PRINTING OFFICE
53-249                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            MICHAEL N. CASTLE, Delaware
CAROLYN B. MALONEY, New York         PETER T. KING, New York
LUIS V. GUTIERREZ, Illinois          EDWARD R. ROYCE, California
NYDIA M. VELAZQUEZ, New York         FRANK D. LUCAS, Oklahoma
MELVIN L. WATT, North Carolina       RON PAUL, Texas
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
BRAD SHERMAN, California             WALTER B. JONES, Jr., North 
GREGORY W. MEEKS, New York               Carolina
DENNIS MOORE, Kansas                 JUDY BIGGERT, Illinois
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
RUBEN HINOJOSA, Texas                SHELLEY MOORE CAPITO, West 
WM. LACY CLAY, Missouri                  Virginia
CAROLYN McCARTHY, New York           JEB HENSARLING, Texas
JOE BACA, California                 SCOTT GARRETT, New Jersey
STEPHEN F. LYNCH, Massachusetts      J. GRESHAM BARRETT, South Carolina
BRAD MILLER, North Carolina          JIM GERLACH, Pennsylvania
DAVID SCOTT, Georgia                 RANDY NEUGEBAUER, Texas
AL GREEN, Texas                      TOM PRICE, Georgia
EMANUEL CLEAVER, Missouri            PATRICK T. McHENRY, North Carolina
MELISSA L. BEAN, Illinois            JOHN CAMPBELL, California
GWEN MOORE, Wisconsin                ADAM PUTNAM, Florida
PAUL W. HODES, New Hampshire         MICHELE BACHMANN, Minnesota
KEITH ELLISON, Minnesota             KENNY MARCHANT, Texas
RON KLEIN, Florida                   THADDEUS G. McCOTTER, Michigan
CHARLES A. WILSON, Ohio              KEVIN McCARTHY, California
ED PERLMUTTER, Colorado              BILL POSEY, Florida
JOE DONNELLY, Indiana                LYNN JENKINS, Kansas
BILL FOSTER, Illinois                CHRISTOPHER LEE, New York
ANDRE CARSON, Indiana                ERIK PAULSEN, Minnesota
JACKIE SPEIER, California            LEONARD LANCE, New Jersey
TRAVIS CHILDERS, Mississippi
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
STEVE DRIEHAUS, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
DAN MAFFEI, New York

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
EMANUEL CLEAVER, Missouri            THADDEUS G. McCOTTER, Michigan
AL GREEN, Texas                      JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              GARY G. MILLER, California
KEITH ELLISON, Minnesota             RANDY NEUGEBAUER, Texas
JOE DONNELLY, Indiana                WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
PAUL E. KANJORSKI, Pennsylvania      ADAM PUTNAM, Florida
LUIS V. GUTIERREZ, Illinois          KENNY MARCHANT, Texas
STEVE DRIEHAUS, Ohio                 LYNN JENKINS, Kansas
MARY JO KILROY, Ohio                 CHRISTOPHER LEE, New York
JIM HIMES, Connecticut
DAN MAFFEI, New York



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 29, 2009................................................     1
Appendix:
    July 29, 2009................................................    37

                               WITNESSES
                        Wednesday, July 29, 2009

Boston, Dr. Thomas D., Professor, School of Economics, Georgia 
  Institute of Technology........................................     5
Cabrera, Hon. Orlando J., Chief Executive Officer, National 
  Community Renaissance and Of Counsel to Nixon Peabody..........     7
Fraser, Dr. James C., Associate Professor, Department of Human 
  and Organizational Development, Peabody College, Vanderbilt 
  University.....................................................     8
Goetz, Dr. Edward G., Director, Center for Urban and Regional 
  Affairs, and Professor, Urban and Regional Planning, Hubert H. 
  Humphrey Institute of Public Affairs, University of Minnesota..    10
Harris, Dr. Laura E., Assistant Professor, Division of Public and 
  Nonprofit Administration, School of Urban Affairs and Public 
  Policy, University of Memphis..................................    12
Jones, David R., Esq., President and Chief Executive Officer, 
  Community Service Society of New York..........................    14
Joseph, Dr. Mark L., Assistant Professor, Mandel School of 
  Applied Social Sciences, Case Western Reserve University.......    16
Popkin, Dr. Susan J., Director, Program on Neighborhoods and 
  Youth Development, The Urban Institute.........................    17

                                APPENDIX

Prepared statements:
    Boston, Dr. Thomas D.........................................    38
    Cabrera, Hon. Orlando J......................................    41
    Fraser, Dr. James C..........................................    49
    Goetz, Dr. Edward............................................    59
    Harris, Dr. Laura E..........................................    77
    Jones, David R...............................................    88
    Joseph, Dr. Mark L...........................................    94
    Popkin, Dr. Susan J..........................................   117


                      ACADEMIC PERSPECTIVES ON THE



                       FUTURE OF PUBLIC HOUSING

                              ----------                              


                        Wednesday, July 29, 2009

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Waters, Lynch, Cleaver, 
Green, Driehaus, Himes, Maffei; and Capito.
    Chairwoman Waters. This hearing of the Subcommittee on 
Housing and Community Opportunity will come to order.
    Good morning, ladies and gentlemen. I would like to thank 
the ranking member and other members of the Subcommittee on 
Housing and Community Opportunity for joining me today for this 
hearing on academic perspectives on the future of public 
housing. Public housing plays an important role in providing 
affordable rental housing for 1.2 million households, 
containing about 3 million individuals.
    In fact, research suggests that residents of public housing 
fare better across a number of measures than households at 
similar income levels who live in private market apartments 
without housing assistance. Despite the many successes of 
public housing, some critics continue to associate the program 
only with problems. These perceptions of public housing have 
led some public housing authorities to push for the continued 
demolition of public housing units.
    The Center on Budget and Policy Priorities estimates since 
1995, 200,000 public housing units, including the great 
majority of large high-rises have already been torn down, just 
as yesterday the Associated Press reported that the City of 
Atlanta is in the process of demolishing the last of its public 
housing, making it both the first city to have public housing 
and the first major city to eliminate it. These negative 
perceptions of public housing also helped fuel disinvestments 
in the program over the last 8 years.
    For too long, our Federal housing policy said that 
homeownership was a one-size-fits-all approach for all 
households and neglected the important need that public housing 
fills for some individuals and families. Year after year, our 
Federal budgets reflected these priorities. Beginning in 2003, 
the Federal Government underfunded the public housing operating 
fund for 6 consecutive years. The public housing capital fund 
has also fallen well short of need in recent years.
    Where estimates vary, the Center on Budget and Public 
Policy priorities estimates the cost of needed repairs and 
modest upgrades at $22 billion. As the current Administration 
begins to reverse the trend of underfunding the program, I 
believe that now is the time to look at how the current program 
can be improved, so that it best serves the needs of low-income 
families.
    First, we must address the loss of units throughout the 
country. The HOPE VI Program has accelerated the demolition of 
public housing, leading to a net loss of at least 50,000 units. 
That is why last year I introduced in the House, and the House 
passed, a HOPE VI reauthorization bill that required one-for-
one replacement. In addition, Chairman Frank and I recently 
wrote to Secretary Donovan to request a one-year moratorium on 
all public housing demolitions.
    I am also troubled by resident displacement and the low 
rates of return among original public housing tenants. 
Additionally, I believe we need to build-up the record of HOPE 
VI and reconsider how well public housing programs meet the 
needs of different types of residents. In particular, I am 
concerned about whether we are adequately serving the most 
vulnerable public housing residents, including elderly and 
disabled residents, families with children, and included in 
that ex-offenders.
    More needs to be done to ensure that housing is connected 
to job opportunities, affordable healthcare, and 
transportation. We also need to improve upon how public housing 
agencies and nonprofits work together to provide case 
management services to residents of all ages by grounds and 
levels of need. This case management needs to continue through 
the life of the development and it needs to effectively target 
residents who relocate with vouchers. It is time to rethink the 
way that residents are involved in the process of governing 
their communities, particularly when redevelopment takes place. 
This includes helping residents access job opportunities right 
in their own backyards and ensuring that they can advocate for 
how their communities are designed.
    I am pleased that our witnesses are here today to comment 
on these issues. There are many questions we have yet to answer 
on these important topics and I look forward to our witnesses' 
testimony.
    I thank you, and I would now like to recognize our ranking 
member, Ranking Member Capito, for 5 minutes for an opening 
statement.
    Mrs. Capito. Thank you, Madam Chairwoman. And I want to 
thank the witnesses today for coming before us. I don't have a 
formal opening statement. I just have a couple of things I 
would like to say, and I also want to apologize. I have to go 
to the Floor to manage two or three suspensions, so I might be 
in and out during the committee hearing.
    At this point in time, I think it's well-placed to be 
looking at the future of public housing and how we can best use 
our resources. Right now at this moment, Federal spending on 
public housing is at an all-time high. When you combine the 
consolidated appropriations with the stimulus package, it's 
quite sizeable, and certainly the same can be said for the HUD 
appropriations bill that was passed last week.
    I think it's important as we look at more dollars that we 
do this in a smart and efficient way, and one of the things I 
have learned through service on this committee in talking with 
my local housing folks is that some flexibility needs to be 
built into the program. So, as the chairwoman said, a one-size-
fits-all approach no longer fits the housing authorities and 
the others who are in the position to make decisions.
    That's why we did our Section 8, the Moving to Work 
revisions I think were good because of the flexibility we built 
in there, and I would like to see us build flexibility into our 
public housing programs as well. I think that innovative 
solutions are what we are looking for today, and I'm certain 
most of you have great ideas on that in terms of how to reach 
our vulnerable populations, whether it's our elderly or 
disabled from my perspective representing a rural State.
    I think it's important too that we realize that rural 
America has great housing needs, maybe not in the greater 
numbers. But as a lot of our aging population lives in the 
rural area, certainly in my State, we need to be able to help 
them meet the challenges they have as they move into their 
elderly years and make sure that they are in safe, affordable 
housing. I have also noticed in my own community of Charleston, 
West Virginia, when we have tried to reshape the face of public 
housing, that a lot of the housing units were clustered 
together intensely, and have come into quite disrepair, because 
of the age, basically, of the units. And I think our housing 
authority has done a wonderful job in terms of reshaping the 
face of public housing in our community, but I think they have 
been able to use some flexibility in terms of not necessarily a 
one-to-one replacement in that exact locality but spread those 
units around the different city and area to make sure the units 
are there, but they are not as heavily concentrated as they had 
been in the past.
    And one of the aspects I think it's important that we 
emphasize too, is as we rebuild and renovate units, that we do 
this in a smart and efficient way to use our dollars the best, 
and that's to make sure we build an energy efficiency and the 
green standards I think will help drive cost savings, but also 
be a smarter way to use our dollars.
    So with that I would like to thank the chairwoman for 
having this hearing and I look forward to the testimony of our 
witnesses.
    Thank you.
    Chairwoman Waters. Thank you very much.
    Mr. Lynch is now recognized for 5 minutes.
    Mr. Lynch. Thank you, Madam Chairwoman.
    I appreciate you holding this hearing and I appreciate your 
longstanding advocacy on behalf of families living in public 
housing. I would also like to welcome our panelists and I thank 
them in advance for their testimony on this very important 
issue.
    As someone who was raised in public housing in the housing 
projects in South Boston, I understand the important role that 
public housing can provide for families and the community at 
large. Federally-subsidized public housing provides homes for 
about 3 million Americans living in 1.2 million households 
today, but we know that our public housing stock is 
insufficient and more units are necessary.
    Prior to coming to Congress, I worked as a young lawyer. I 
did pro bono work in the housing projects in the City of Boston 
representing families living in public housing, who were having 
trouble with lead paint on the pipes, asbestos in the 
apartments. Folks who were underhoused, a lot of kids living in 
apartments with maybe one bedroom. So I know the strain that's 
facing a lot of families in public housing. Many factors have 
contributed to a shortage of public housing, including 
insufficient Federal funding and the demolition of aging units 
without replacements, as Chairwoman Waters has mentioned.
    This committee has received testimony at previous hearings, 
and I have heard from the public housing community in my 
district, that public housing agencies lack sufficient staff 
and resources to perform inspections and maintain aging 
buildings. It is especially stressful in larger urban areas, 
including some cities in the Northeast, such as in my district 
in Boston, where the housing stock is older than in many parts 
of the country.
    We know that additional maintenance and inspections are 
necessary to ensure tenants' safety and the proper allocation 
of Federal resources.
    The lasting questions related to public housing are 
grounded in how to best use affordable housing as a platform 
for families' stability and independence. Research has 
supported the idea that a stable, safe, and clean place to live 
can serve as the foundation for self-sufficiency. And as we 
enter into a new phase of federally-subsidized housing, I am 
interested in hearing more about the many approaches to the 
future of public housing intervention, whether it's a 
continuation of the mobility-based, mixed-income models that 
have helped transform old high-rises into revitalized 
communities or the prioritization of housing preservation for 
certain populations like the disabled and elderly.
    I look forward to hearing from our panelists on these 
ideas. I want to thank you, Madam Chairwoman, again for your 
advocacy on this issue and for convening this hearing. And I 
yield back the balance of my time.
    Chairwoman Waters. Thank you very much.
    Mr. Himes, would you like to make an opening statement? If 
not, we will move to our witnesses. Again, we want to thank you 
for being here today. We will recognize you each for 5 minutes, 
and we will begin with our first witness, Dr. Thomas Boston, 
professor, School of Economics, Georgia Institute of 
Technology.
    Our second witness will be the Honorable Orlando Cabrera, 
CEO, National Community Renaissance and Of Counsel to Nixon 
Peabody.
    Our third witness will be Dr. James Fraser, associate 
professor, Department of Human and Organizational Development, 
Vanderbilt University.
    Our fourth witness will be Dr. Edward Goetz, director, 
Center for Urban and Regional Affairs, University of Minnesota.
    Our fifth witness will be Dr. Laura Harris, assistant 
professor, School of Urban Affairs and Public Policy, 
University of Memphis.
    Our sixth witness will be Mr. David Jones, president and 
CEO, Community Service Society of New York.
    Our seventh witness will be Dr. Mark Joseph, assistant 
professor, Mandel School of Applied Social Sciences, Case 
Western Reserve University.
    And our eighth witness will be Dr. Susan Popkin, director, 
Program on Neighborhoods and Youth Development, The Urban 
Institute.
    Without objection, your written statements will be made a 
part of the record. You will be now be recognized for a 5-
minute summary of your testimony.
    Thank you. Starting with you, Dr. Boston.

    STATEMENT OF DR. THOMAS D. BOSTON, PROFESSOR, SCHOOL OF 
           ECONOMICS, GEORGIA INSTITUTE OF TECHNOLOGY

    Mr. Boston. Thank you, Madam Chairwoman, and the honorable 
and distinguished members of the subcommittee.
    Your invitation letter asked me to answer eight specific 
questions related to my research on the Atlanta Housing 
Authority, and I will restrict my answers to those questions. 
And let me start simply by summarizing my research findings, 
and that is that when low-income housing-assisted families are 
given access to quality affordable housing in neighborhoods of 
greater opportunity, their self-sufficiency increases 
significantly.
    The first question I was asked to respond to was to 
describe my research on public housing in Atlanta. I have 
mainly focused on how mixed-income revitalization, housing 
choice vouchers, and public housing have affected family self-
sufficiency. I have examined 20,000 administrative records of 
families who received housing assistance from the Atlanta 
Housing Authority between 1995 and 2007, and, more recently, I 
completed an examination of 26,000 families who received 
housing assistance from the Chicago Housing Authority between 
1999 and 2007.
    I have attempted to answer the following questions: Did 
families relocate to better neighborhoods when the housing 
projects they lived in were demolished? Did they lose housing 
assistance? Did mixed-income developments or vouchers improve 
self-sufficiency in comparison to housing projects? Did the 
benefits of mixed-income revitalization exceed the cost? 
Finally, did the performance of elementary kids improve if 
their families had access to vouchers or lived in mixed-income 
developments?
    Next, I was asked to describe the transformation efforts in 
Atlanta. Between 1995 and 2007, Atlanta fully constructed 13 
mixed-income developments, more than any other housing 
authority in the country. In 1995, Atlanta provided housing 
assistance to over 16,000 families, 47 percent of whom lived in 
public housing projects, and 33 percent of whom used the 
vouchers.
    By 2007, Atlanta provided housing assistance to over 17,000 
families, 15 percent of whom lived in public housing projects, 
and 59 percent of whom used vouchers. And then, another 90 
percent lived in mixed-income developments and I am leaving 
aside in those percentages the elderly families.
    What are the re-screening policies of AHA and what 
percentage of original public housing residents moved back into 
the redeveloped communities? Madam Chairwoman, I cannot speak 
authoritatively on the re-screening policies. I do know that 
those policies, those re-screening processes were handled by 
private development companies, and I would have to defer to the 
management of the authority in regards to a more authoritative 
answer to that. But with regard to the second question that I 
have examined in detail, my research found that in Atlanta, 
21.4 percent of the still-active original families moved back 
into mixed-income developments, and about 61 percent used 
vouchers.
    I have also found through numerous focus group interviews 
that the large percentage of families who remain on vouchers do 
so primarily by choice. My statistical research in Atlanta also 
found that mixed-income revitalization did not cause families 
to lose housing assistance.
    The next question I was asked is in what way have I updated 
my 2005 article that was published in the Journal of the 
American Planning Association. And I would simply say that I 
conducted a number of updates to that study, including 
extending it over a period of time. I have added a study of 
Chicago. I have looked at issues of the association between 
voucher locations and crime. I have done cost-benefit analyses, 
and so on. The most important update has been the addition of 
the Chicago Housing Authority that was funded by a grant from 
the McArthur Foundation, and that is a 300-page report that is 
currently undergoing peer review. Here are the findings:
    First, I found that families who relocated--and this is 
specifically with respect to Atlanta--from public housing 
projects moved to much better neighborhoods. We looked at 16 
community metrics to evaluate that. Second, we found that the 
employment rates of work eligible adults increased from 21 
percent in 1995, when most families lived in public housing 
projects, to an average of 53 percent in 2007, when most 
families had moved away from those projects. And we tracked 
families longitudinally.
    On nationally standardized tests we found that: kids whose 
families lived in housing projects scored very low, in the 29th 
percentile nationally; those whose families used vouchers 
scored slightly higher, in the 35th percentile nationally; and 
those whose families lived in mixed-income developments scored 
higher, in the 43rd percentile. All of these, of course, are 
much lower than we would like to see them. And, the most 
important point is that the vouchers in mixed-income 
developments provided access to better schools.
    Violent crime was not significantly correlated with the 
percentage of families who lived in census tracts. It was, 
however, highly correlated with the poverty rate in census 
tracks. And, finally, we found that the net social benefit of 
revitalizing 6 public housing projects in Atlanta was $125 
million per development, our benefit cost ratio of 1.6 to 1.
    Let me end simply by saying that my research in Atlanta has 
demonstrated conclusively that the self-sufficiency of low-
income families can improve significantly if those families are 
provided access to quality, affordable housing in neighborhoods 
where the opportunities for upward mobility are greater.
    Thank you very much.
    [The prepared statement of Dr. Boston can be found on page 
38 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Now, we will go to Mr. Cabrera.

STATEMENT OF THE HONORABLE ORLANDO J. CABRERA, CHIEF EXECUTIVE 
OFFICER, NATIONAL COMMUNITY RENAISSANCE AND OF COUNSEL TO NIXON 
                            PEABODY

    Mr. Cabrera. Thank you, Madam Chairwoman.
    Good morning, Chairwoman Waters, Ranking Member Capito, and 
members of the subcommittee.
    My name is Orlando Cabrera and I wanted to thank you, Madam 
Chairwoman, and Ranking Member Capito for your invitation to 
speak this morning. Madam Chairwoman, I ask that my written 
comments be entered and accepted into the record.
    Chairwoman Waters. Without objection, it is so ordered.
    Mr. Cabrera. In light of present company, I feel compelled 
to state that I am not an academic. Further, most of my 
comments are tailored to the world of the PHA, the housing 
provider. There are some axioms in the world of public housing; 
and, one of them is that public housing is at a crossroads, and 
that's because public housing is always at a crossroads. There 
are pretty basic reasons for that being the case. The first and 
foremost reason is that our country is always changing.
    That is no different today. Public housing policy has 
always been interesting because it's a terrific indicator of 
where our country is. Public housing was very important to 
returning veterans during World War II and it's going to be 
very important to the elderly, right now, frankly, with our 
aging population. We're going to see demand increased for 
public housing and more accurately for affordable housing. And 
one of the very large issues facing the issue of public housing 
is how we look at housing.
    Public housing has always been treated as something that is 
outside of the housing spectrum. It is another theory I 
disagree with strongly. I think public housing is well within 
the housing spectrum and needs to be considered within the 
housing spectrum. Moreover, the focus, I believe, for many 
housing practitioners is the issue of affordable housing, and, 
what is the supply of affordable housing? How is that supply 
helping those who need it most?
    No place is that reality more acute than in the world of 
elderly housing; and no place will it be more acute in our 
lifetimes, I believe, with the state of our aging population.
    Another large issue for PHAs is the changing nature of our 
Nation's demographics. Much of our public housing stock was 
developed at a time when the population center was located in 
the Northeast. Things are changing remarkably. The modality for 
housing in the places where it's changing has typically not 
been public housing. It has been for the last 30-plus years 
Section 8. So issues that are very important to the Northeast 
and rightly important, such as public housing and the 
obsolescence of public housing, are far less important to 
places in the West than in the South where vouchers are the 
typical modality for housing people who have the need to be 
housed. This is going to drive a lot of the conversation, but 
it begs a big question, which is why we have typically treated 
public housing in a particular way. We have decided long ago 
that public housing, and this is not a one-size fits all 
argument, but public housing is a particular kind of program.
    The truth is that, from a practitioner's perspective, 
public housing is one part of a very large spectrum that fits a 
lot of needs, and that spectrum deals with its needs in 
different ways in different parts of the country. The driver 
here is always going to be whether the local government has the 
flexibility to function in order to address the needs of its 
particular community. In the Northeast it's going to be 
different than in West Virginia or in Los Angeles, or for that 
matter in San Bernardino, which is just 40 miles to the East of 
Los Angeles.
    That driver is going to dictate a lot of how we deal with 
the issue of affordable housing generally and the subset of 
public housing. Very quickly, there is a tangential issue that 
I promise you no one--none of my formal professional colleagues 
at HUD--asked me to do this, but I'm going to do this 
shamelessly. A big part of trying to determine the future of 
public housing is probably funding technology at HUD. Public 
housing is driven by data, and data currently is kept at HUD in 
ways that would be a technological generation ago--a lot of 
Excel spreadsheets. There are currently applications that will 
make the business of keeping data much easier, would serve 
Congress well, would serve HUD well, would serve PHAs well, and 
would serve tenants well.
    I would ask Congress to think about funding a solid, 
technological platform for HUD to provide that data to all of 
us, to the American taxpayer, to PHAs, to this Congress, and to 
tenants.
    With that, Madam Chairwoman, and Ranking Member Capito, 
thank you for your time. Thank you for the invitation, and I 
stand ready to answer any questions you might have.
    [The prepared statement of Mr. Cabrera can be found on page 
41 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Dr. James Fraser?

    STATEMENT OF DR. JAMES C. FRASER, ASSOCIATE PROFESSOR, 
  DEPARTMENT OF HUMAN AND ORGANIZATIONAL DEVELOPMENT, PEABODY 
                 COLLEGE, VANDERBILT UNIVERSITY

    Mr. Fraser. Good morning, Madam Chairwoman, Ranking Member 
Capito, and distinguished members of the subcommittee. Thank 
you for this opportunity to testify today.
    For more than a decade, I have been involved as evaluator 
in a variety of HOPE VI and mixed-income housing programs 
around the southeastern United States, I have also been a part 
of the active community of scholars who share scientific 
findings with each other. Today, I draw on all of these to 
testify.
    One of the most noteworthy aspects of the HOPE VI Program 
is that it addressed both place-based goals around neighborhood 
revitalization and people-based goals around economic self-
sufficiency, wealth accumulation, and general wellbeing. Among 
the most important lessons that we have learned from HOPE VI is 
that any policy utilizing such a dual focus requires as much 
planning, professionalism, and follow-through to create the 
enabling conditions for people to move up and out of poverty as 
it does to change the landscape by building housing and 
providing increased police patrol.
    Research shows that HOPE VI has been very successful in 
most cases in providing decent, affordable housing that is 
attractive and suits the needs of many low-income families. My 
own research in Durham, North Carolina, and in Nashville, 
Tennessee, show that residents are generally very satisfied and 
appreciate safe, affordable, quality housing. Likewise, 
research across the country does point to the fact that people 
who are able to qualify to move back into HOPE VI 
redevelopments actually do experience a better environment 
living where there's less crime, whether that be their 
perceptions or actual police records showing that it is 
decreased.
    However, people are not all benefiting equally for two 
reasons. First, even when stakeholders claim that they equally 
support place-based goals and people-based goals, the place-
based goals typically outpace people-based goals. And, second, 
HOPE VI has been geared for a specific type of low-income 
citizen, namely, those who have clear paths in mind to achieve 
their goals, access to decent paying jobs, relatively few 
barriers in their way, and they view HOPE VI as providing 
quality, income stabilized housing as a stepping stone on their 
journey. But we know the evidence suggests the large majority 
of people in poverty do not fall into this category.
    Many low-income families live in isolated poverty with 
multiple barriers to work and a lack of access to living wage 
jobs. Indeed, HOPE VI was designed to deal with this issue 
through the creation of mixed-income communities. But today I 
would contend there is little, if any, direct evidence, that 
shows that living in a mixed-income community has actually 
empowered low-income residents to move toward economic self-
sufficiency.
    Certainly, living and having access to quality affordable 
housing has helped that, but living near middle-income families 
has not been shown to do that to-date. These findings have 
prompted some people to suggest that we are expecting too much 
out of a program like HOPE VI, that we could do better, or that 
we should just not expect that people would move up and out of 
poverty in such a way. But, my research and my review of the 
literature shows that perhaps part of the issue is that we 
haven't provided the authority to the people that we're trying 
to help to actually make decisions about the communities being 
built.
    HOPE VI families do have quality housing, but broader 
achievement around people in place-based goals of neighborhood 
revitalization and increases in economic status have not been 
realized. And, if residents through community-based 
organizations had more control over their homes and 
neighborhoods as well as the authority to lead and design HOPE 
VI type neighborhood initiatives, it is likely these goal sets 
would be addressed in a manner that mirrored the actual needs 
of the people who are the stakeholders, the low-income 
residents.
    It is not my intention to say that public housing 
authorities are not capable of meeting the goals of HOPE VI. 
Rather, I suggest that we are asking too much of them. Let them 
build on their strengths, which are frequently related to 
developing and managing housing and other physical assets, and 
let us instead turn to residents and community-based 
organizations to lead the public, private, and non-private 
sectors toward the intertwined goals of neighborhood 
transformation and upward economic momentum for low-income 
residents.
    I have assembled policy suggestions that do stem from 
different research projects, and I'll state a few right now. 
First, thinking about the choice neighborhoods legislation that 
will be considered, perhaps entities other than public housing 
authorities could be considered to be the recipients. 
Community-based organizations have long-standing relationships 
with public and private organizations that have a track record 
of getting things done.
    The second, in terms of governance of these types of 
initiatives, residents do much better when they come to a table 
on equal footing. Too often, I heard stories from HOPE VI where 
residents were asked to choose paint colors and give their 
feelings or input about the relocation process. But when it 
came down to the actual decision-making, they were not at the 
table. So I concluded that their range of policy suggestions, I 
suggest around this, that might be able to empower residents to 
engender greater commitment toward the communities and 
neighborhoods we're building and create the sustainability 
we're looking for with the large public investment that is 
outlayed.
    Thank you.
    [The prepared statement of Dr. Fraser can be found on page 
49 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Dr. Edward Goetz.

 STATEMENT OF DR. EDWARD G. GOETZ, DIRECTOR, CENTER FOR URBAN 
    AND REGIONAL AFFAIRS, AND PROFESSOR, URBAN AND REGIONAL 
   PLANNING, HUBERT H. HUMPHREY INSTITUTE OF PUBLIC AFFAIRS, 
                    UNIVERSITY OF MINNESOTA

    Mr. Goetz. Thank you, Madam Chairwoman, and members of the 
committee.
    I appreciate the opportunity to provide this testimony 
today. As Dr. Fraser noted, the HOPE VI Program is designed to 
create two general types of benefits. The first is the 
community-wide benefits. It is envisioned that HOPE VI 
redevelopment will result in an increase in property values, 
attraction of greater levels of private sector investment, an 
improved neighborhood environment, a reduction in crime, and so 
on.
    The program is also designed to provide individual level 
benefits for the residents of the public housing. The idea here 
is that by relocating the better neighborhoods while moving 
into the finished redevelopment that these residents will have 
a reduced fear of crime and reduced risk of victimization. They 
may even experience increased physical health, mental health, 
and will achieve greater economic self-sufficiency.
    The academic research to-date shows a fair amount of 
success, an impressive amount of success on the first of these 
objectives, these community-wide benefits. Studies across the 
country have shown that crime is reduced in neighborhoods that 
have undergone HOPE VI transformation, unemployment drops, 
incomes in the neighborhood rise. poverty declines, there is an 
overall increase in the level of education in the neighborhood, 
and property values increase.
    The only caveat to these generally very positive outcomes 
is that most of them are dependent upon population turnover. 
That is income is increased in the neighborhood and levels of 
education increase, not because the existing residents have 
improved their lot, but because those residents have been 
replaced by more highly-educated and higher-income people.
    At the individual level, the research is much more mixed 
and the evidence of benefits to individuals is much more 
modest. On the positive side, virtually all studies show 
consistent and strong benefits in the form of a reduced fear of 
crime. Residents report less evidence of social disorder. They 
report higher satisfaction with housing conditions, with the 
exception of cost in most cases. But, otherwise, the evidence 
is really quite mixed. There is the predominance of evidence 
shows no demonstrated benefits on employment, on earnings, on 
economic self-sufficiency.
    In fact, there is even evidence of greater economic 
insecurity among families who are displaced through HOPE VI 
redevelopment. There is no consistent evidence of health 
improvements. This comes from the largest study in this respect 
is the Urban Institute's five-city panel study. There is no 
consistent evidence of school-related benefits for children. 
There are mixed findings related to neighborhood satisfaction.
    Some residents are more satisfied in their new 
neighborhoods. Some are less satisfied. Some residents are more 
satisfied with certain dimensions of their new neighborhood and 
less satisfied with others. There are significant and 
consistent findings, however, that displacement through HOPE VI 
disrupts the social networks and the social support systems of 
lower-income public housing families.
    They experience, and their children tend to report, greater 
levels of social isolation, fewer interactions with neighbors 
in their new neighborhoods, a loss of a sense of community, and 
damage to the overall social capital. These limited individual 
benefits are problematic in and of themselves. I think they are 
more problematic because of my current research, which shows 
that HOPE VI and public housing demolition in general tend to 
target projects with disproportionately high percentages of 
African-American residents in them. So my recommendations going 
forward, these results I think suggest a number of different 
changes in direction.
    The first would be to stop further demolition of public 
housing. As you noted in your opening remarks, HUD has 
demolished close to 200,000 units of public housing over the 
last 15 to 20 years. That's more than twice the number of units 
that the Commission that led to the creation of HOPE VI 
identified as being severely distressed. As we continue to tear 
down public housing through HOPE VI, we tend to tear down units 
and projects that are more and more functional over time, and 
this is reflected in the evidence of residents who are asked 
whether they want to move, the majority of whom say no.
    I would also suggest that given the positive outcomes of 
the physical redevelopment in HOPE VI neighborhoods that we 
have perhaps come upon a good model for building more 
affordable housing. So far from continuing to tear down public 
housing, we should use the lessons of HOPE VI to actually 
expand public housing. We can build it in a mixed-finance and a 
mixed-income manner, and we can be expanding the stock of 
affordable housing. The demand for it, of course, still exists.
    Any redevelopment policies going forward should limit 
displacement of families to all extent possible. This means 
favoring rehabilitation over demolition. It means phased 
redevelopment. It means building replacement housing before 
demolition takes place and then, finally, for a percentage of 
residents of public housing, the evidence shows those who 
benefit the most from voluntary, enforced displacement are 
those who wanted to move in the first place.
    And so Federal policy should maintain an option for people 
who want to move out of public housing. Voluntary mobility 
programs like Moving to Opportunity should be continued and 
expanded in order to provide that opportunity.
    [The prepared statement of Dr. Goetz can be found on page 
59 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Dr. Harris?

STATEMENT OF DR. LAURA E. HARRIS, ASSISTANT PROFESSOR, DIVISION 
OF PUBLIC AND NONPROFIT ADMINISTRATION, SCHOOL OF URBAN AFFAIRS 
            AND PUBLIC POLICY, UNIVERSITY OF MEMPHIS

    Ms. Harris. Good morning, Madam Chairwoman, Ranking Member 
Capito, and distinguished members of the subcommittee. Based on 
my research experiences, this testimony addresses the questions 
posed in the invitation letter I received for this hearing.
    I have submitted a more lengthy written testimony to the 
subcommittee, but here I'll focus on describing the case 
management system in Memphis and lessons for future policy. 
Case management to help new residents toward employment and 
economic self-sufficiency is a key part of the HOPE VI Program, 
typically by referring residents to existing community 
programs.
    In the past few years, there has been a tremendous 
evolution in this case management system used in Memphis based 
on experiences with two early HOPE VI grants they received. 
While these early grants maintain compliance with HOPE VI 
guidelines, they did not achieve the desired change of 
significant progress toward economic self-sufficiency for many 
residents, which was the ultimate goal.
    By the time the Memphis Housing Authority received its 
third and fourth HOPE VI grants in 2002 and 2005, there were 
local stakeholders, including the Housing Authority, who saw 
that there needed to be a more structured, intensive, and 
comprehensive case management system in place to help 
households move toward self-sufficiency. The most important 
stakeholder to become involved in the HOPE VI redevelopment 
efforts was the Women's Foundation for Greater Memphis, who 
made a financial commitment of $7.2 million to support the 
entire case management program for these 2 cities for 5 years 
for approximately 600 families.
    During this time, the Memphis Housing Authority identified 
urban strategies as a key partner in providing technical 
assistance to this case management program, helping plan and 
coordinate community development programs. In 2006, Urban 
Strategies, the Memphis Housing Authority, and the Women's 
Foundation together agreed to the creation of a new nonprofit 
called Memphis HOPE, which is now the entity responsible for 
case management for HOPE VI residents.
    One key lesson from much HOPE VI research has been that 
many adults need far more than referrals to job training 
programs or encouragement in order to get a job. In my written 
testimony, I describe three key barriers that public housing 
residents in Memphis and elsewhere face when trying to improve 
their economic situation: low levels of education and literacy 
problems; health problems that are undiagnosed, not managed 
well, or do not meet Federal guidelines as disabilities in 
order to receive assistance; and a lack of personal or 
accessible public transportation.
    In thinking about the lessons from HOPE VI, there are five 
issues that should be considered in crafting future Federal 
policy for public housing residents and other very poor 
households. First, in programs like this, identify a strong 
intermediary who will advocate throughout the local community 
for the needs of this client population in the redeveloping 
neighborhood. In Memphis, the Women's Foundation and local 
foundations have made a commitment to see long-term change, 
continually asking for evidence of change and plans for 
sustainability after the initial 5-year case management period 
ends. Many in the local community now view this Memphis HOPE 
model as an incubator for creative ideas about how to affect 
real change for poor households.
    Second, following on this first point, figure out how to 
work around the program funding silos which make comprehensive 
case management and redevelopment efforts difficult. In 
Memphis, the local funding through the efforts of the Women's 
Foundation and the creation of this third-party nonprofit have 
made it possible to react quickly to create programs as they 
identify program gaps for their case load.
    Third, ensure that the program starts to make plans early 
on to figure out how case management will be sustainable for 
HOPE VI clients wherever they live. In particular, the presence 
or absence of case management services may affect the long-term 
viability of these newly developed mixed-income HOPE VI sites. 
For example, at one of the earlier HOPE VI sites that is now 
mostly redeveloped, property managers have reported that in the 
last year since HOPE VI case management stopped there, there 
has been an increase in the number of public housing residents 
losing their jobs and facing eviction. There is concern at this 
site and others that particularly during the current economic 
climate, more residents will lose employment and face some more 
circumstances. There is a need for ongoing case management if 
this vision of creating mixed-income communities where public 
housing residents live is to be truly viable.
    Fourth, make sure that grantees are realistic from the 
start about the goals for their client population, by 
understanding the depth of literacy problems, mental and 
physical health problems, and other barriers to employment and 
self-sufficiency. After more than a decade of Welfare to Work 
era efforts, including HOPE VI case management, there is a much 
better understanding about the types of issues to look for and 
plan for.
    Finally, encourage grant recipients to capitalize on 
creative approaches to identify local partnerships for client 
employment. I go into more detail in my written testimony about 
this, using a very innovative approach. They work to create 
individual relationships with both large and small area 
employers to help open doors for clients who are qualified for 
work. They have chosen to target opportunities where clients 
might move ahead and ultimately become economically self-
sufficient, rather than merely focusing on quickly locating 
minimum wage service sector jobs. These recommendations suggest 
that both the system of service delivery and the content of 
those services should be examined to ensure that programs can 
be as efficient as possible in helping move poor individuals 
toward economic self-sufficiency as appropriate.
    Thank you.
    [The prepared statement of Dr. Harris can be found on page 
77 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Jones?

    STATEMENT OF DAVID R. JONES, ESQ., PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, COMMUNITY SERVICE SOCIETY OF NEW YORK

    Mr. Jones. Thank you, Madam Chairwoman, and honorable 
members of the committee. Thank you for inviting me to testify 
on the future of public housing, particularly in regard to the 
New York City Housing Authority's (NYCHA) implementation of 
something called Section 3 of the 1968 Housing Act, which 
requires that HUD funds be used to maximize job and training 
opportunities for low-income residents.
    My organization, the Community Service Society, has long 
been concerned about the scale and effectiveness of local 
Section 3 efforts by the New York City Housing Authority. As a 
more than 160-year-old organization, we were one of the first 
to address urban poverty in America. We founded the Columbia of 
Social Work, and for those visiting New York, the first public 
baths. But our work recently has focused on labor force issues 
in New York, particularly concerning black males and 
disconnected youth.
    To place New York's experience in context, it should be 
noted that the New York City Housing Authority runs the largest 
and reputedly one of the best housing authorities in the 
Nation. It serves over 180,000 households in 340 developments 
across the 5 Boroughs of the City. With a resident population 
in that complex of 500,000, its size comes closer to matching 
some major cities in America and it represents, I think, 
somewhat over a quarter of the total population of residents in 
public housing.
    In contrast to other areas, low-income families are 
desperate to get into public housing in New York. We have a 
waiting list that well exceeds 100,000 and waits as long as 9 
years are not uncommon for people waiting to get in. NYCHA 
receives more than $1 billion in HUD funds each year, which are 
spent on management operations and capital improvements. And, 
this year, NYCHA has already received 423 million additional 
economic and stimulus funds, which opens up further 
opportunities. In short, NYCHA is a major economic engine 
within the City of New York and we have a good reason to expect 
Section 3 efforts to be significant.
    But, we find it falls short of providing economic 
opportunity to residents at a size comparable to the 
expenditure. In our latest housing policy report that we have 
submitted to the committee making the connection, economic 
opportunity for public housing residents, we find that only 51 
percent of NYCHA's 231,000 working age residents participated 
in the labor force in 2005. Another 13 percent were engaged in 
school or training.
    We estimate at present, and this is probably a low 
estimate, that between 20- and 30,000 residents are unemployed, 
and now actively seeking work in a recession. Our economy can 
serve the worse since the Great Depression of the 1930's. We 
have some reason to believe from our experts that unemployment 
rates for Blacks and Latinos in New York may well top-out in 
2011, somewhere in the vicinity of 20 percent. So we're coming 
into an enormously bad time.
    Most in the Housing Authority in New York are Black and 
Latino women--62 percent--many under age 24; or Black and 
Latino men between 18 and 34. Over a third don't have high 
school diplomas. As our report indicates, the Authority's 
Section 3 effort is ridiculously small compared to the number 
of potential jobseekers in NYCHA communities. For that reason, 
CSS supports the Earnings and Living Opportunities Act being 
drafted by Congresswoman Nydia Velazquez, because it will 
strengthen existing Section 3 provisions in several ways.
    It accords, first, hiring-training priorities to residents 
in developments where head funds are being expended and then to 
those in the broader community around those developments. It 
essentially incentivizes and makes it possible for residents to 
watch as enormous investment goes on in their community and sit 
around; and none of those jobs are available. This becomes an 
intolerable situation.
    It provides a private right of action that enables 
aggrieved parties to take legal action against agencies or 
contractors, and New York, as you may be aware, has a long 
history of discriminatory behavior in the trades. It sharpens 
the requirements for hiring and training for agencies and 
contractors receiving HUD funds. It creates a Section 3 office 
within the Office of the HUD Secretary, and it increases local 
accountability.
    Moreover, we urge congressional drafters to incorporate 
real incentives for housing authorities to intensify Section 3 
efforts. The proposed legislation speaks to performance 
incentives that can be instituted by the HUD Secretary. I'll 
close there.
    [The prepared statement of Mr. Jones can be found on page 
88 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Joseph.

 STATEMENT OF DR. MARK L. JOSEPH, ASSISTANT PROFESSOR, MANDEL 
    SCHOOL OF APPLIED SOCIAL SCIENCES, CASE WESTERN RESERVE 
                           UNIVERSITY

    Mr. Joseph. Madam Chairwoman, members of the subcommittee, 
thank you for the invitation to speak before you today.
    Secretary Donovan has said that building communities in a 
more integrated and inclusive way is essential to advancing 
social and economic justice in America. The HOPE VI Program, as 
we have already heard, has had some impressive successes and 
also faces some deep challenges.
    The Choice Neighborhoods initiative has great promise as a 
new phase of poverty deconcentration, but as best I can tell, 
it also has the potential to repeat or overlook some of the key 
shortcomings with the HOPE VI Program. Along with collaborators 
at the University of Chicago, one of whom--Amy Khare--sits 
behind me today at the hearing.
    My research is focused at the ground level of the massive 
public housing transformation currently underway in Chicago. 
Our research has included in-depth interviews with almost 200 
residents and 75 other stakeholders; and almost 300 
observations of internal meetings and community activities. I 
want to make just two main points this morning about what we 
are learning about mixed-income development in Chicago. First 
we have identified some of the early benefits that residents 
have experienced, but also some important downsides to what is 
happening to them. Second, successful mixed-income development 
is more complicated than anticipated, and I will propose six 
key success factors that should be considered.
    So one of my early resident experiences in mixed-income 
developments, on the very positive side, there have been high 
levels of resident satisfaction with the new physical 
environment. Public housing residents never thought they would 
get to live in such high-quality housing. My written testimony 
includes quotes, so you hear in residents' own voices about all 
of these findings I am going to talk about.
    Also positive, there have been self-reported psychological 
benefits. Some report a decrease in the stress that they feel, 
not having to deal with violence and crime. Some particularly 
increased aspirations, feeling that they are more motivated to 
accomplish more in their lives now that they have had this 
housing opportunity. But, on the other hand, there are 
residents who report an increase in stress. For some, the 
strict rules and monitoring in the new developments generate 
stress, and, some have told us that they feel there are double 
standards that are applied to them versus the other residents 
of the developments.
    For some, there's an increased sense of stigma within the 
new development. Residents feel stereotyped by their new 
neighbors because of where they used to live. There are low 
levels of social interaction among the residents. Some 
residents are disappointed with the lack of a sense of 
community. Others welcome the privacy in the new developments, 
but there's a considerable amount of self-isolation--residents 
withdrawing and really keeping to themselves. And this was not 
the intention of HOPE VI.
    There have also been some tensions and negative 
interactions among residents driven by underlying us versus 
them dynamics. These issues include an absence of shared norms 
and concerns about social control. Let me use my remaining time 
then to suggest six possible key factors for success:
    Number one: balancing screening with inclusion: Which low-
income residents will get to return on-site to benefit from the 
revitalization? The key will be how to screen-out those 
residents who may create problems for everyone while screening 
in as many residents as possible, who could make the most of 
the opportunity.
    Second, property management: It is clear that high quality 
property management is critical to a successful development. 
But less obvious is the potential for property managers to 
either be central players in the positive community building 
process; or, to detract from it by imposing their own 
prejudices and differential treatment of residents.
    Third, support services: Housing relocation alone will not 
change residents' economic circumstances. There need to be both 
pre and post occupancy supports; and, not just work supports 
and incentives, but social services as well; and these services 
must be sustained well beyond move in. So that's where there's 
a need for long-term funding, service infrastructure and 
service integration.
    Fourth, physical design: Units should be externally 
indistinguishable, but also physically integrated on the site. 
And the design should include common space, green space, and 
shared amenities. This is need to promote and shape social 
relations; but, we must anticipate that it will be contested 
space, raising issues of turf, of norms of behavior and of 
informal social control.
    Next, resident engagement and community building: Given the 
extreme income and racial diversity in these sites, social 
connections will not happen naturally. There must be ways to 
identify shared interest and common ground, or else perceived 
and real differences will drive social relations.
    And, finally, governance and decisionmaking: In the Chicago 
developments, the condo associations are the sole, formal the 
decisionmaking body; and, they exclude all renters. The local 
advisory counsels have been disbanded, thus creating tension 
and increasing divisions. There need to be inclusive governance 
bodies, where all residents can be represented and have a voice 
in their community.
    I'll end there. I have not had time to address the impact 
of the current housing market crisis on mixed-income 
development, and can take that up later if there's interest.
    Thank you.
    [The prepared statement of Dr. Joseph can be found on page 
94 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Dr. Popkin.

    STATEMENT OF DR. SUSAN J. POPKIN, DIRECTOR, PROGRAM ON 
    NEIGHBORHOODS AND YOUTH DEVELOPMENT, THE URBAN INSTITUTE

    Ms. Popkin. Thank you, Chairwoman Waters, and honorable 
members of the subcommittee. Thank you for inviting me to 
appear here today.
    For the past decade, I have been studying the impact of the 
HOPE VI Program on the original residents of public housing 
targeted for redevelopment. While most of my research is 
focused on Chicago, which had more distressed public housing 
than any other city, I have conducted research in 15 HOPE VI 
sites across the country.
    My remarks today draw from two major studies: the HOPE VI 
Panel Study, which tracked residents from five sites across the 
country from 2001 to 2005; and the Chicago Family Case 
Management Demonstration, which began in 2006. HOPE VI was a 
key element of a bold effort to transform distressed public 
housing communities and demonstrate that housing programs could 
produce good results for residents and communities.
    Evidence from The Urban Institute's Hope VI Panel Study, 
the most comprehensive study of resident outcomes, shows that 
many former residents have received vouchers or moved into 
fixed-income developments, and now live in better housing, in 
less-poor, dramatically safer neighborhoods. And as Dr. Goetz 
said, we see the same finding in virtually every study that has 
been done on relocation. However, despite these very real 
gains, our research shows that the program has not been a 
solution for those hard-to-house families who suffered the 
worst consequences of distressed public housing.
    If Choice Neighborhoods is to be more successful than its 
predecessor in meeting the needs of the most vulnerable, the 
initiative must incorporate strategies that effectively address 
their needs. Hard-to-house residents are long-term public 
housing residents who are coping with multiple, complex 
problems, such as mental illness, severe physical illness or 
disability, substance abuse, large numbers of young children, 
grandparents raising young children, low levels of education, 
weak labor market histories, and criminal records.
    Our analysis from the data from the Hope VI Panel Study 
estimated the proportion of families falling into one of these 
categories ranges from 37 percent in 3 smaller cities to 62 
percent in the 2 larger cities, in Chicago and Washington, D.C. 
In 2005, we found that the follow-up, that every site these 
hard-to-house families were more likely to end up in 
traditional public housing than to have received vouchers who 
have moved into mixed-income housing. Placing them in other 
traditional developments may well have kept them from being 
homeless, but clearly we need better solutions for vulnerable 
residents than simply moving them to other developments, which 
may well become as or even more distressed than the 
developments where these families started.
    The Chicago Family Case Management demonstration provides 
one model for serving the needs of the most vulnerable public 
and assisted housing families. The Demonstration, the 
partnership of The Urban Institute, the Chicago Housing 
Authority, and Heartland Human Care Services, serves residents 
from two CHA developments and provides these families with 
intensive family case management services, long-term support, 
enhanced relocation services, workforce strategies for those 
who have barriers to employment, and financial literacy 
training.
    The ultimate goal of these services is to help these 
families maintain safe and stable housing, whether in 
traditional public housing in the private market with a voucher 
or in a new, mixed-income development. The project is now in 
its third year, and has achieved impressive interim outcomes, 
including engagement rates of 90 percent; and, successfully 
adapting the model from one that provides place-based services 
to one that follows residence post-relocation.
    We have used the data from the demonstration to create a 
resident typology to develop criteria for targeting services 
effectively. Our analysis divides the demonstration population, 
all long-term, extremely poor, African-American residents, into 
three distinct groups based on characteristics, each needing a 
different kind of service approach. What we call the ``Striving 
Group'' has their high school diplomas. They are connected to 
the labor market, even if they are cycling in and out of low-
wage jobs, and most significantly they are in good physical and 
mental health. These are the residents most likely to benefit 
from relocation with vouchers or to mixed-income developments. 
Their biggest problem is that they have lived in public housing 
for more than 20 years.
    They will continue to need light-touch support to ensure 
that they are able to maintain the gains they made in leaving 
distressed public housing, including long-term follow-up, 
employment and financial literacy services, and perhaps second 
mover counseling to help them make subsequent moves to even 
less poor neighborhoods that offer greater opportunities for 
them and their children. In contrast, the group we're calling 
``Aging and Distressed'' have stark physical and mental health 
challenges, and are unlikely to move toward self-sufficiency.
    In addition to having very fragile health status, most have 
not worked in decades, and are truly disconnected from the 
labor market and the world outside public housing. A better 
approach for these extremely vulnerable residents is to focus 
on harm reduction; essentially, helping them remain stable and 
avoid becoming either homeless or ending up in nursing homes. 
And since many of them still have children in the household, to 
keep those children from ending up in the child welfare system.
    For example, a strategy might be to convert some 
traditional senior housing into an assisted living model that 
provides sufficient care, meals, housekeeping activities, 
healthcare and case management, to help these frail residents 
remaining in the community. To accommodate the needs in the 
public housing population, the service would need to be 
available to residents well under the age of 60, so not just to 
elderly who suffer from major and physical disabilities.
    Finally, the group we're calling ``High Risk'' residents 
share characteristics with both the ``Striving'' and ``Aging 
and Distressed'' groups. Like the ``Striving Group,'' they 
generally are younger and have children in the household; and, 
like the ``Striving Group,'' the vast majority of these 
residents indicated they didn't want to remain in traditional 
public housing. But they have very low levels of education and 
literacy. They are disconnected from the labor force. And, 
further, while they are not yet as frail as the ``Aging 
Distressed Group,'' they already have serious physical and 
mental health challenges with high rates of poor health, 
depression, anxiety, obesity, and substance abuse.
    With their multiple challenges ``High Risk'' families are 
the group for whom intensive case management models and 
permanent, supportive housing are most likely to pay off in 
terms of keeping them out of the homeless, child welfare, and 
criminal justice systems. Assisting them to achieve their 
housing goals for vouchers or mixed income, and helping them 
move towards self-sufficiency.
    In conclusion, with its proposed Choice Neighborhoods 
initiative, the Obama Administration has the opportunity to 
build on nearly 2 decades of experience with HOPE VI. 
Incorporating intensive case management and permanent 
supportive housing for the most vulnerable into Choice 
Neighborhoods or any other comprehensive redevelopment efforts 
is one way to ensure these initiatives truly meet the needs of 
all public housing families.
    Thank you.
    [The prepared statement of Dr. Popkin can be found on page 
117 of the appendix.]
    Chairwoman Waters. Thank you all very much for your 
testimony here today.
    I would now like to recognize myself for 5 minutes to try 
to raise some questions about some of what I have heard. Let me 
ask Dr. Boston, would you describe the case management services 
that have been received by those clients who have been moved 
out of public housing or even those who remain in mixed-use 
HOPE VI projects? What kind of case management do they get?
    Mr. Boston. Each family who is relocated has an individual 
case manager. That family is assigned a person and that person 
works with an individual on a one-on-one basis, so that if it 
is an issue of relocation or if it is an issue of attempting to 
find housing, if they have to move from one location to 
another, they have that. There's also a very extensive program 
of training, both in terms of workforce development as well as 
educational training and other kinds of programs.
    Chairwoman Waters. Are the case managers social workers? 
Are they individuals who are hired to connect with community 
resources rather than do the kind of social work that deals 
with the whole person and the whole family?
    Mr. Boston. They are a combination of both, and they do.
    Chairwoman Waters. Do you have professional social workers 
who are doing this work?
    Mr. Boston. The individuals are not professional social 
workers, but they are individuals who are very familiar with 
the problems that families have encountered and they have a 
variety of strategies to assist those families in addressing 
those problems.
    Chairwoman Waters. The residents who are given Section 8 
vouchers, and I think you described something like 61,000 of 
those, I'll go back and take a look, had they been tracked? Do 
you know why they are?
    Mr. Boston. Yes, I do.
    Chairwoman Waters. Where are they?
    Mr. Boston. The residents who have Section 8 vouchers have 
moved in a variety of locations. They have roughly of those who 
have Section 8 vouchers about 20 percent live in suburban 
communities outside of Atlanta and the remainder live in 
various communities within the City of Atlanta. Most of those 
residents are in the southern part of the city, but more 
recently with the growing use of project-based rental 
assistance, which allows the location of housing assistance 
throughout the City, there are a number of families who have 
moved in all locations of the City, including some of the 
wealthiest neighborhoods.
    Chairwoman Waters. So what you are telling me is your 
research is such that you have traced all of those and you know 
where they are and that none are concentrated in the poor 
census tracks?
    Mr. Boston. No. I am not saying that none are concentrated, 
but I can tell you definitively that I have traced every one of 
the families; and, we have what we call a metric, a community 
attribute index that includes 16 variables. And we have 
geocoded that index to the address of every family and we have 
tracked those families' movements from year-to-year between 
1995 and 2007.
    Chairwoman Waters. How do you account for the growing 
homelessness in Atlanta? I was recently there over by Five 
Points and Woodruff Park, and there were hundreds of people 
being fed. And when I went back in the evening I saw what 
appeared to be thousands. Who are those people, and are any of 
those former residents of public housing? Has the homelessness 
increased in Atlanta?
    Mr. Boston. Homelessness has increased, but I cannot say 
the increase is due to any policies of the Atlanta Housing 
Authority. In fact, as the initial part of my research, I spent 
a great deal of time setting up a research designed 
specifically to determine whether or not the housing policies, 
particularly in regards to mixed-income development, was 
causing families to lose housing assistance at a rate that 
would not be expected otherwise, and I found that was not the 
case.
    Atlanta has had, up until the recent housing crisis, a 
serious problem of housing affordability; and it had created a 
tremendous strain for families, both working families as well 
as housing assisted families, low-income families, without 
jobs.
    Chairwoman Waters. Well, you had waiting list for housing 
assistance in 2001 with over 24,000 individuals on it. So are 
you suggesting that even with the Section 8 vouchers that you 
put out into the overall Atlanta area and the waiting list, 
that there was plenty of room for these Section 8 vouchers, 
plenty of units that could be utilized by the displaced 
tenants?
    Mr. Boston. The families who have been relocated, and in 
addition to tracking records, I have conducted over 20 focus 
groups, and each focus group has a minimum of 10 families 
there. And so I have looked at families both qualitatively as 
well as quantitatively and I can say that those families have 
been able to find housing in locations throughout the City. And 
there has not been a problem with families who received housing 
vouchers finding places to live.
    Chairwoman Waters. Our records show that as of 2007, of the 
5,000 families displaced from public housing, only 332 moved 
back into mixed-income communities. Does that number sound 
correct to you?
    Mr. Boston. That number does not sound correct to me.
    Chairwoman Waters. What does your research show? About how 
many moved back?
    Mr. Boston. Well, yes. As I indicated earlier, my research 
shows that roughly 20 percent of the families who were living 
in public housing moved back to public housing, and the issue 
is complex, because there is a normal year-to-year attrition of 
families from public housing, and that attrition rate is about 
10 percent independent of whether they are involved in mixed-
income development.
    Families move away. Some families are evicted. Some 
families have health problems, and other problems. And so 
that's 10 percent across-the-board, so if you take that 10 
percent out, which is true of both families affected by mixed-
income revitalization and those that aren't, then 20 percent of 
those remaining who are in public housing moved back into 
public housing developments.
    Chairwoman Waters. Someone, and I don't know if it was you 
who mentioned that the screening process for being able to get 
back into a HOPE VI project is done by the private developer. 
Is that true?
    Mr. Boston. Yes.
    Chairwoman Waters. Why would private developers be deciding 
how we spend our government money to house?
    Mr. Boston. Because that's the way it is done. I'm sorry, 
Madam Chairwoman, I don't know all of the details of the 
screening process, so I can't speak authoritatively on that. 
But I can say simply that the housing authority works with 
private developers and they outline the criteria that the 
developers have to follow in providing services to the 
families, and, there are also certain stipulations in the lease 
agreement that families sign onto that establish conditions for 
them occupying those houses.
    Chairwoman Waters. Mr. Goetz, it sounds as if your research 
and your information is quite different from Mr. Boston's. You 
have heard what his research has shown in Atlanta, and it 
differs somewhat with what you appear to have discovered in 
your work. Can you tell me about what you have discovered with 
the ability of those who were living in distressed housing who 
are transferred into HOPE VI projects--the ability for them to 
get back in--how was that screening done? Who gets back in and 
why?
    Mr. Goetz. Well, I don't know of any studies that have 
answered that particular question about who gets in and why. I 
do know that in most cities the screening process is managed by 
private management firms that are working in the redeveloped 
site and that they apply screening criteria that are generally 
much stricter than what had been applied in previous public 
housing instances. So increased tenant screening criteria is an 
important reason why so few of the original residents ever get 
back into the development.
    Chairwoman Waters. Do you know if the private developers 
have social workers who are part of that screening who are 
looking at these individuals, what their needs are and how they 
possibly could benefit from this redeveloped housing?
    Are we looking at Atlanta and other areas who are 
interested in getting people back into HOPE VI projects, who 
had no problems, who have demonstrated that they already have 
taken control of their lives and that they are on the path to 
career development.
    Are we literally getting rid of the most vulnerable people 
in those housing projects who need more services and the people 
who are already on the track to taking control of their lives 
benefiting from these policies? Is that what we are doing?
    Mr. Goetz. Well, I do know also that most of the families 
who are displaced from a HOPE VI project, they do as many of 
the members of the panel have mentioned: move to better 
neighborhoods; but that's a relative term. They are moving in 
most cases from neighborhoods that have 60 percent poverty to 
neighborhoods that have 30 percent poverty. This still leaves 
them in neighborhoods that are more than 3 times as poor as the 
average city neighborhood and more than 4 times as poor as the 
average metropolitan area neighborhood.
    They also move to other racially segregated neighborhoods. 
So those who don't get back into the redeveloped site may have 
marginally improved their neighborhoods, but they are still in 
many of the most disadvantaged neighborhoods in the city.
    Chairwoman Waters. So, I'm going to move on to my other 
members, but let me just say that everyone basically concluded 
that most of the distressed housing projects are occupied by 
African American and Latino minorities for the most part. And 
when they are given these Section 8 vouchers that will allow 
them to move wherever they want to move, they are moving into 
suburbia and into better communities where they are welcomed by 
everybody. Is that right?
    Mr. Goetz. No.
    Chairwoman Waters. No?
    Mr. Goetz. No.
    Chairwoman Waters. Why not?
    Mr. Goetz. Well--
    Chairwoman Waters. In Atlanta, they move wherever they want 
to move.
    Mr. Goetz. They are of course restricted by the ability of 
fair market rents and by the willingness of landlords to accept 
housing choice vouchers. They are also limited by their 
knowledge of the housing market and their own preferences for 
staying in neighborhoods that are neighborhoods that they may 
be more familiar with or neighborhoods where they had social 
support networks in place.
    Chairwoman Waters. Do you think that the poor Census tracks 
in these cities are impacted by the displaced, Section 8 
voucher holders, more than any other sections of these cities?
    Mr. Goetz. Are you still asking just me?
    Chairwoman Waters. Yes, just you.
    [laughter]
    Mr. Goetz. I asked because I actually haven't researched 
that particular question, but, given the fact that that's where 
most of the displaced families conduct their housing searches, 
it's logical to conclude that it's putting significant pressure 
on the housing stock in those neighborhoods.
    Chairwoman Waters. Well, I thank you for that, and the 
reason I did not ask some of the others was I had an 
opportunity to meet Mr. Jones up in New York when I held a 
hearing there just last week, and I know what he has testified 
to. And both Dr. Harris and Dr. Popkin basically gave testimony 
today that comports with my experience having worked in public 
housing.
    So I just did not ask them additional questions, because, 
you know, they too like you seem to share some of the knowledge 
and information that I have, but I wanted to hear a little bit 
more from you, because you first opened up some of the 
questions about the success. And everybody said with HOPE VI 
there is some success, but I appreciate you also identifying 
the weaknesses along with Dr. Fraser.
    Thank you very much.
    With that, I will turn to Mr. Cleaver.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    I understood Mr. Goetz on the same deal, but I want to 
include Dr. Joseph and Dr. Harris to perhaps get some kind of 
an academic response as well. When I was Mayor of my City and 
in charge of public housing, we built the first HOPE VI project 
in the Nation in Kansas City, Missouri. And if we look at the 
units today, they still look good.
    They are well cared for, but I was criticized because all 
the HOPE VI units are still in the lowest income tracks. But, 
we have a structural problem, and I don't know how we can get 
it fixed. I know right now you're going to fix it, because you 
can answer this question and we are going to solve this 
problem. I am going to be a hero. Yale University is going to 
get big grants.
    Here it is. HUD--Mr. Cabrera may need to get in this as 
well--will only give a certain amount of money for land 
acquisition. And it turns out that land acquisition is always 
less expensive in the low-income tracks. And so if we get 
dollars for a HOPE VI project, I don't care where the housing 
authority looks or the mayor looks, it's going to end up in the 
lower-income tracks, because that's the only affordable land. 
How do we solve it?
    I mean, there are some neighborhoods that are exempt. Now, 
they would probably fight anyway, but their exemption, at least 
when I was mayor, is based on the fact that I can't buy land 
there.
    Mr. Cabrera. Congressman, are you asking?
    Mr. Cleaver. Well, yes.
    Mr. Cabrera. Okay. HOPE VI developments happen on property 
that belongs to the public housing authority that is subject to 
a declaration of trust and that has units that have annual 
contributions contracts on them that are going to be 
demolished. So when the portion of the HOPE grant, and I don't 
recall that there is an acquisition portion, it might be that 
they are adding on land around the property that they already 
own.
    The first step in HOPE VI is identifying what property the 
public housing authority has that it wants to deal with in 
terms of demolition. HOPE VI's purpose, legislative intent to 
this day, is two-fold. It is to demolish public housing units 
that are obsolete, because the vast majority of public housing 
stock is between 50 and 70 years old. Its purpose is to 
deconcentrate poverty. And its purpose is to build something 
back, using a bunch of different kinds of financial tools--not 
just public housing funds. The reason that it worked in Kansas 
City, the reason it has worked in other cities as well--when it 
has worked and it has worked mostly--is because the marriage of 
all those tools have come out with a product that serves a lot 
of people--not just the demographic--that is occupying the 
public housing band width.
    Public housing is a financing mechanism. It essentially is 
a unit financing mechanism to operate a particular apartment. 
When you add the other mechanisms, you are serving essentially 
low-income people, but you may not be serving low-income people 
who had received a public housing unit. Dr. Popkin illustrated 
this just a few minutes ago with respect to how it is that 
folks come back or don't come back. There's always attrition 
from public housing.
    One of the reasons that it winds up being the case that 
HOPE VI deals, as you noted, look better, is because generally 
the way they are pro forma, the way they are economically 
modeled, allow for reserves to permit the maintenance of those 
units. So from an economic perspective, Dr. Boston, I don't 
know if I missed that, but if I did, please correct me.
    Mr. Boston. Yes. Congressman, I would like to share my 
perspective on that, and maybe we can get some grant money 
coming to Georgia Tech. But it requires a complex of strategies 
to have a successful community. The fundamental strategy is 
that you have to focus on the issue the ladders that create the 
fulfillment of the human potential. And above and beyond bricks 
and mortar, and anything else, the most important element is 
having in place policies and strategies that allow families to 
fulfill their human potential.
    What does that mean when we talk about neighborhoods? Well, 
forget about the bricks and mortar. We mean, have we built 
better schools? Do the children have access to better schools? 
On average, their mother, typically black, has two kids. Those 
kids are very young. She is concerned about their safety. Have 
we addressed issues of crime in the neighborhood through 
various partnerships with communities that have capabilities of 
doing so? Have we established an early learning center and do 
we have new YMCAs or after school programs?
    Mr. Cleaver. I am going to interrupt you because you're 
making the point I was trying to make. What we're talking about 
is trying to completely, socially, and in some cases even 
morally and physically, rehab an area and that's because the 
only place we place housing units are in areas like that.
    I mean why can't we place housing units, whether they are 
Section 8, whether they are HOPE VI, in areas where, you know, 
everybody says scatter sites of housing. If people find out 
that you're going to try to build something, they are going to 
come and say, I know the whole deal. We will have traffic 
problems if we build new housing coming in, or we're going to 
overload the schools. But why can't we have scatter-site 
housing in neighborhoods where we don't have to go in fighting 
crime?
    Mr. Cabrera. It's very expensive, scattered housing. And, 
Congressman, just a small tweak: The case of Kansas City is 
different than other cases. So if you go to San Francisco, 
there is a HOPE VI deal smack down in the middle of North 
Beach. If you go to Seattle, there is a huge, brand new, 
beautiful HOPE VI deal in South Seattle, which is now a very 
vital community. And, if you go to Tacoma, you go to Salishan. 
It's another example of a place where, again, it's in a vital 
community. And this is where the local nature has to be brought 
into consideration. It depends upon the location. It depends 
upon where you are building. It is a very different situation 
in Kansas City, perhaps, than it is in Seattle. And I think 
that's part as it is in Atlanta for that matter. So I think 
that's part of the stress there.
    Chairwoman Waters. Thank you very much.
    Mr. Green?
    Mr. Green. Thank you Madam Chairwoman, and I thank both you 
and the ranking member for the work that you have done in 
affordable housing, especially with the Affordable Housing 
Trust Fund, which I hope will in time help us with a good many 
of the problems that we are contending with currently. I also 
thank you for the assemblage of witnesses that we have today, 
all of whom have great credentials, and I thank you for your 
testimony.
    My first question, and it's to anyone who would care to 
respond, and if you can be terse, it would be appreciated. Why 
do we need brick and mortar as opposed to just having vouchers? 
There are many who contend, why have a building that we have to 
manage? Why not just have all vouchers?
    Mr. Goetz. The most prominent answer to that would be that 
in some cities with very tight housing markets, Housing Choice 
vouchers are extremely difficult for tenants to use. They face 
tremendous competition in the rental market, and given the 
choice, landlords tend to prefer residents who don't have 
vouchers and Section 8 certificates to those who do. And so in 
some hot real estate markets that characterize many American 
cities, Housing Choice vouchers are about as good as 
confederate money.
    Mr. Green. Moving to another question, and thank you.
    We have lost about 50,000 public housing units because of 
the HOPE VI revitalization program. Is that a fair statement? 
If I have made an unfair statement, somebody please correct me.
    Mr. Cabrera. We have demolished 110,000 units through the 
HOPE VI Program, if I recall.
    Mr. Green. Now, if the purpose of the Program was to 
revitalize severely distressed public housing, has HOPE VI in 
some fashion been less than HOPE VI, maybe HOPE V?
    Mr. Cabrera. There was a HOPE V, you know. There is HOPE I 
through V.
    Mr. Green. Yes, well.
    Mr. Cabrera. HOPE VI has been successful in places where 
the local government has the capacity to move it forward. It 
has struggled in places where that might have been a challenge. 
I would take, you know, without at all trying to appear 
disagreeable, I would disagree with Dr. Goetz.
    In those places that allocate Section 8 vouchers, what 
you'll find is utilization rates that are bordering 98 percent, 
and they tend to be very dense areas of the country. The places 
where you see Section 8 probably struggle a bit, are in places 
that have housing authorities in suburban areas or housing 
authorities in rural areas.
    Rural areas drive a lot of the Section 8 voucher 
underutilization. The second largest housing authority in this 
country is not on the mainland. It's in Puerto Rico. It has 
more units than Los Angeles. It has more vouchers, I believe, 
than Chicago.
    Mr. Green. I am going to have to ask you to wrap up. I have 
about four more questions.
    Mr. Cabrera. No, sure. I'm sorry. And so my point is, it's 
more a balance of understanding what the demand is in the city.
    Mr. Green. And I'll give you a chance to respond in a 
moment if I have enough time. But because we don't have one-
for-one replacement, and because we have persons who do not 
return for various and sundry reasons, I have to ask, is HOPE 
VI being used to evict people from projects who ordinarily 
might not be evicted? I heard what were called forcible injury 
and detainer lawsuits in another life, commonly known as 
evictions.
    And there were persons who could not be evicted, but my 
suspicion is if they had a chance to find another way to move 
persons, this may have been done. So does that happen when you 
rebuild, reconstruct? Do you lose people who have been deemed 
undesirable, but who were lawfully eligible to be in the 
project, the housing unit?
    Ms. Popkin. May I respond to that?
    Mr. Green. Go on.
    Ms. Popkin. Our research has shown that what mostly happens 
to the most troubled tenants, the undesirable tenants, is they 
have been moved to other distressed public housing. They have 
not been evicted in large numbers. They have been pushed 
somewhere out of the way in a place that I think could become 
even more distressed than the place they started, because now 
you have all the troubled families concentrated together. So in 
the housing authorities I have studied, they have certainly 
been moved out of where they were, which was often an awful 
place. But they often feel that where they have gone is a 
little bit better, but it's certainly not anywhere any of us 
would think is a good solution.
    Mr. Green. Madam Chairwoman, may I ask one final question?
    Chairwoman Waters. Yes.
    Mr. Green. My final question, thank you, is this. Is public 
housing in this country at risk because of undocumented 
workers?
    Mr. Cabrera. No, Congressman. Public housing is offered to 
either folks who are legal residents of the United States or 
U.S. citizens; or, alternatively, children who might have 
parents who are illegal, but who have an entitlement.
    Mr. Green. But are you having a real problem? Are you being 
sued by undocumented workers, lined up outside, demanding that 
they have units?
    Mr. Cabrera. No.
    Mr. Green. Are they protesting outside, saying where is my 
public housing?
    Mr. Cabrera. They aren't, Congressman.
    Mr. Green. I ask because there's a big concern about the 
takeover, about the undocumented workers just absolutely 
consuming the public housing stock of this country, and I'm 
eager to know where this is happening. Have any of you 
experienced a big takeover because of undocumented workers?
    Mr. Cabrera. No. No.
    Mr. Green. Let the record reflect that all heads were 
indicating a negative in terms of an answer, and I thank you 
Madam Chairwoman. If we have a second round, I will have more 
questions.
    Chairwoman Waters. Thank you very much. Our ranking member 
has returned. Ms. Capito?
    Mrs. Capito. Thank you, Madam Chairwoman.
    I apologize for missing a lot of the testimony, but I am 
very interested in the questions. Dr. Boston, in your 
presentation you talked about the influence of different public 
housing availabilities on the level of achievement for students 
in testing. And, I think if you go from 29 percent in public 
housing to 43 percent in the mixed income, that's dramatic.
    I am not a professional like you all are, but that's a 
dramatic increase there. But as you said, that's still low, but 
it's going in the right direction. How much in the future 
strategy of the best way to put forth public housing are 
statistics such as this incorporated into reshaping public 
housing for the future? We are looking at the academic side of 
the polling--not polling--but the research that you have done.
    Mr. Boston. Thank you very much for the question. It is 
increasingly becoming an issue, and, indeed, a growing criteria 
that is being asked of public housing authorities to consider. 
That is, how do various policies affect the performance of kids 
whose families receive housing assistance, so that if you look 
at the Choice Neighborhoods Program, it's a part of that 
program. And I think it's an excellent criteria, because 
fundamentally, those are the kids who in the future will either 
contribute productively to society or if there is no adequate 
intervention, unproductively.
    Mrs. Capito. Does anybody else have a response? Yes, Dr. 
Joseph?
    Mr. Joseph. I think it is also important to note though 
that what Dr. Boston is finding may also be evidence of 
different populations going into different circumstances. So 
the group that we see going into mixed-income housing and 
having these better numbers in terms of achievement may have 
been actually a higher achievement group in some ways, had they 
been able to jump through the different hurdles they needed to 
to get themselves into the new housing versus taking a voucher 
or making different choices.
    So part of what we do moving forward to your question is 
also sort out a little bit how much of this is an actual impact 
of the different circumstance and how much is driven by 
different types of families making or being forced or 
constrained into different choices.
    Mrs. Capito. Yes, I could see that. I see what you're 
saying, but I do think as Dr. Boston points out that those 
children--and I'm sure I'm not telling you something you don't 
already know, but--those children are probably going to be the 
children; that, as they grow if they fail to achieve or if they 
have difficulties--meaning they are going to be the ones who 
are going to be looking at public housing as an option for 
them--and then the cycle continues in a way that it makes it 
difficult to break those cycles. So I think that's good.
    We do a lot in this committee and subcommittee about 
different social programs, and counseling programs, housing 
literacy programs, foreclosure assistance. Well, not 
foreclosure, obviously, that wouldn't be right, but other 
educational programs. And can you give me an overview of the 
utilization of these programs and are they actually achieving 
what we hope they do achieve?
    Ms. Popkin. I think that related to the HOPE VI Program, 
specifically, the case management has very considerably. You 
heard Dr. Harris talk about Memphis, where it took them a long 
time to develop a comprehensive case management. I know from 
Chicago, the City where I'm doing work now, utilization is 
about 50 percent, generally.
    Mrs. Capito. About what?
    Ms. Popkin. 50 percent.
    Mrs. Capito. 50 percent of the residents are using it or 
the total program is only used 50 percent of the time?
    Ms. Popkin. 50 percent of the residents are using it in a 
demonstration. We are doing it and have been able to increase 
that to 90 percent, but that takes extra money and more time 
for the case managers.
    Mrs. Capito. What would be the best? This might be a 
dangerous question in some sense, but what would you say is the 
most effective best program in terms of counseling assistance, 
whether it's parenting or child skills, or financial literacy 
or home budgeting? I mean, is there one that kind of stands out 
above the rest?
    Ms. Popkin. I think you need all of it, especially. You 
know, a lot of people have been using distressed public 
housing, not all public housing, the subset of really troubled 
public housing, as the housing's last resort. And you're 
dealing with a population that is very similar to the homeless, 
and they need comprehensive services--everything you 
mentioned--parenting, support. And a lot of them are going to 
need it for a long time. It's not going to go away quickly.
    Mrs. Capito. Doctor?
    Ms. Harris. May I say, in Memphis, they do really think. 
They haven't come up with words like Dr. Popkin described for 
their typology in Chicago looking at their entire case load. 
But they really do think about, you know, what are the services 
appropriate for their elderly and getting them in stable 
housing, where there's not work as a goal there. And what do 
they do for people who are officially, technically disabled, 
who may be able to work a little bit.
    But a full time job is not feasible for them and helping 
them find what's appropriate for them. And then there's the 
whole rest of the case loads. That's the working age adults who 
may have employment, or may not, that need some further 
assistance in some way. And it's figuring out for them is their 
key barrier really getting him hooked up to one more program; 
you know, a job training program, that's going to move them 
into a position that would be stable for them; or, is it really 
getting them into that literacy class and finding childcare and 
whatever the other issues are.
    So I think it's so hard to come up with what is the program 
or what is the most effective, because it's so personalized for 
small segments of the case load. And I think Memphis has done a 
good job of looking at that, particularly when it comes to 
employment, in figuring out small groups to work together with 
those residents to move toward employment.
    Mr. Jones. I would just be careful, and not just from an 
academic vantage point, not to forget that the magnitude of the 
recession we are in is changing all the rules. If you have 
whole communities where public housing is set that are losing 
employment at extraordinary rates, that changes the game 
entirely.
    So some of the inventions we're talking about here may not 
be as effective, because the real question is, can you get 
people back into the workforce and can you get people in 
housing authorities, that we see some skills to get back into 
productive work? So I think there has been a shift here, and 
some of the fights we have in New York are assuming full 
employment where people are just holding back. That's not the 
case here. People are clamoring for work.
    Mrs. Capito. Thank you.
    Chairwoman Waters. Thank you very much.
    Mr. Driehaus?
    Mr. Driehaus. Thank you very much, Madam Chairwoman, and 
thank you for this hearing.
    I have worked with the housing authority very closely over 
the last 10 years in Cincinnati, and, with all due respect to 
Dr. Boston and his comments about the way the voucher system is 
working, we haven't seen it play out that way in Cincinnati. 
And I would like to ask any member of the panel about rent 
reasonableness, because we are running into what I perceive to 
be a real challenge.
    The HOPE VI project in Cincinnati has displaced many low-
income families, but in addition to the HOPE VI project, there 
were other very large developments that were also torn down 
around the same time, which led to a dramatic increase in the 
voucher population. But where the relocation occurred in many 
cases was driven not by the housing authority or the policies 
of the housing authority directly, but by what they were 
claiming to be the private sector.
    Well, when we dug into it a little deeper, what we found 
was that the reimbursement rates for the vouchers in certain 
neighborhoods, and they tended to be high poverty 
neighborhoods, so far exceeded the market rate rental that 
that's where landlords flocked. We are in low- to mixed-income 
neighborhoods, and, purchase single family homes, there was an 
additional incentive, a 10 percent bump-up in the voucher if it 
was a single family home.
    So we found a lot of investors going in and purchasing 
single family homes in what were moderate priced neighborhoods. 
And what we did not find was the type of dispersion, Dr. 
Boston, that you spoke of in Atlanta. And we found that there 
was a reconcentration of poverty in essentially the 
neighborhoods right around where the HOPE VI project was. So we 
created this kind of artificial mixed-income neighborhood 
through the HOPE VI project.
    We took what were mixed-income neighborhoods in the 
surrounding area, and turned them into low-income 
neighborhoods. And we have seen the subsequent flight that one 
often sees when that happens. You know, in addition, these were 
the same neighborhoods that were impacted by predatory lending 
and who have felt the brunt of a foreclosure crisis. So at the 
same time, these neighborhoods are experiencing predatory 
lending.
    They have an influx in investors using vouchers, and really 
tipping the balance in many of these neighborhoods. But it was 
driven in large part in terms of the voucher side by what the 
reimbursement rate was for the voucher. How do we get around 
the rather strict requirements at HUD on rental reimbursements? 
How do we get more flexibility to the local housing authority 
to recognize where that disparity exists between the rental 
reimbursements and the market rate to make that even across-
the-board, so we do achieve the type of balance that Dr. Boston 
spoke of.
    Mr. Boston. Could I just respond very quickly?
    Mr. Driehaus. Sure.
    Mr. Boston. And, again, one of the things Atlanta has done 
is to create what they call rental submarkets. And, so, rather 
than applying the same fair market rental standard across the 
City, whereby you actually constrained to neighborhoods that 
you can move in and it confines most of the rental 
opportunities to the lower-income neighborhoods, they have 
taken the same pool of money and disaggregated it, broken it 
down into different power, depending upon the cost of housing 
in different neighborhoods.
    Mr. Driehaus. The challenge we face is that those runaways 
can change dramatically from street to street in certain 
neighborhoods. So when we try to set rental rates by Census 
track, even, they can be wildly off, depending upon what block 
you're on.
    Mr. Boston. Right.
    Mr. Driehaus. And in many older cities, we find this all 
the time, that neighborhoods are not homogenous in terms of the 
housing. But, yet, the Housing Authority finds itself 
restricted because of what they are being told by HUD.
    Mr. Cabrera. Congressman, it isn't so much what they are 
being told by HUD. HUD, when they set rent payment 
reasonableness standards, now use something called the American 
Community Survey. And it isn't the perfect tool. Traditionally, 
it used a lagging indicator built on the Census, which meant 
your rent standards were being set 2 years behind the date when 
it would apply.
    Mr. Driehaus. But by Census track, correct?
    Mr. Cabrera. It is by Census track, but it's beyond the 
Census track. It is more a survey beyond what you are 
describing to me, as I understand it, is a qualified Census 
track. So it has other permutations to it. Even if it is a 
standard rate, housing authorities can go in and ask for a 
multiple increase over the rent reasonableness standard up to 
140 percent. One of the problems here--I hate to keep coming 
back to this--but actually there are two issues that you are 
highlighting.
    The first one is that rent setting is a bit of a Byzantine 
process, and for most public housing authorities it is very 
frustrating. If anybody knows what their community looks like, 
it's the housing authority. They know what rents should be. 
That is an issue of some controversy before this body. It has 
been for a very long time.
    I am certainly an advocate of that decision being made, as 
locally as humanely possible, within some parameter. But the 
second issue here is one of a housing authority recognizing 
what it's looking at in terms of what its housing stock looks 
like. Cincinnati's housing stock is very different than 
Atlanta. Atlanta has an enormous number of multi-family options 
and also of single-family detached, where Cincinnati has far 
more single-family detached.
    That's the supply driver, and that has to do with a broader 
policy issue that's tougher to address. Certainly, on the 
payment standard issue, there are options that the housing 
authority has within a degree, but there is a question in 
there, a policy question, of who is better at setting rents. Is 
it going to be the public housing authority, or is it going to 
be policy development and research at HUD. And I understand.
    Mr. Driehaus. Well, I appreciate the understanding. I thank 
you, Madam Chairwoman, and I'll wrap up. But I really do think 
that the objective, obviously, through the voucher program, is 
to allow families, allow kids to grow up in neighborhoods that 
create a supportive environment. But that is not the way we 
have seen it play out, at least in Cincinnati. What we are 
seeing is a reconcentration of poverty. You know, the same type 
of concentration we are trying to break down through the HOPE 
VI project, but that's not how it's working in practice. And I 
believe that for the most part is due to the restrictions 
through rent reasonableness that are placed on local housing 
authorities by HUD. And I would like to see far greater 
flexibility.
    You only have to open up the newspaper to figure out what 
the market rate is in a given neighborhood or sub-neighborhood. 
It's not that tough, and it seems to me that we should allow 
local authorities the flexibility to do so.
    Chairwoman Waters. Thank you very much.
    I would like to yield to myself another minute and to all 
of our members here today one minute for a closing statement or 
questions that you may have.
    Let me just thank our participants for being here today and 
presenting very valuable information. We really do have to 
think about public policy for this entire country and recognize 
that they are different communities with different kinds of 
problems and different kinds of resources that we must 
recognize. But we must always recognize that there are people 
who have little or no income and have little or no education or 
health problems and other kinds of problems that do not allow 
them to be fully in charge of their lives, and we have to deal 
with that. And so we are going to look at all this information 
and try and get all of the research that we possibly can to 
help move us to a public policy that will make good sense for 
basically everyone.
    I am committed to the moratorium on demolition for the next 
year. I think that's important while we try to get a handle on 
where we are going. We will be looking very closely at the new 
secretaries at Choice Neighborhoods proposal, etc., etc. Let me 
just close by asking a very simple question relative to the 
private developer criteria I have been given from Atlanta in 
determining whether or not residents are eligible in the 
residents' election plan. There are several questions that I 
don't understand.
    Credit and good standing: No negative information without 
remedy relating to a landlord, property owner or mortgagee. No 
debt can have been written off within one year of application, 
including bankruptcy as a write-off. Any past-due consumer 
debts showing balances older than 6 months must accompany 
written evidence on creditor stationery indicating repayment 
plan, and no past due balances within 3 months of application. 
What does that have to do with whether or not a potential 
resident, particularly one who lived in distressed housing, is 
able to get back into a HOPE VI redeveloped project. Anyone?
    Yes, Mr. Fraser, is it?
    Mr. Fraser. Yes. I would say that that speaks to the 
multiple goal sets that public housing authorities find 
themselves in under a type of program like HOPE VI. So they 
have the responsibility of managing an asset, that asset has 
been heavily invested in. And, most times, what I have seen in 
my own research is that the rules and regulations go well 
beyond what would be expected of someone who is middle class 
and items that aren't necessarily pertinent.
    So in the name of keeping the asset the way it is, we do 
find that many people who need housing are kept from it. So 
it's not surprising my research in Nashville, where I 
interviewed people at all four public housing sites that were 
HOPE VI, no one is complaining, because everyone who got in met 
such high criteria that they are really not the population that 
I was speaking of before who needs the most help. They are 
grateful, but we need to also help those people who have not 
risen to that level yet.
    Chairwoman Waters. Does anyone on the panel believe that no 
debt can have been written off within 1 year of application, 
including bankruptcy as a write-off, is a fair criteria?
    Mr. Cabrera. Madam Chairwoman, for me it's not a question 
of whether it's fair or not. There are two dynamics in a HOPE 
VI deal, and I'm assuming that questionnaire comes from a HOPE 
VI deal. The first one is which are the units that are being 
financed with ACCs, and which are the units that are being or 
were financed in terms of their construction by low-income 
housing tax credits?
    When they are financed by low-income housing tax credits, 
it means an investor was involved. And that questionnaire is 
very, very common in the 2 million or so units that we have 
nationwide with respect to low-income housing tax credits. 
Further, I am currently a tenant in Southern California.
    Chairwoman Waters. Do you meet the credit criteria?
    Mr. Cabrera. Pardon me?
    Chairwoman Waters. For this application?
    Mr. Cabrera. I received an application that looked an awful 
lot like that, and asked those questions, just like the way you 
have asked them. Now I ask those questions, because when you 
are an investor, the critical issue is can the tenant pay rent, 
in order to support the units that they have invested in.
    If there is evidence the tenant cannot, that is 
troublesome, because they are the landlord and they have to pay 
usually a lender. They have to pay an investor. They have to 
pay whomever they have to pay. They have to find out whether 
that's a legitimate recourse.
    Chairwoman Waters. What percentage of public housing 
tenants are evicted for non-payment of rent?
    Mr. Cabrera. Public housing tenants?
    Chairwoman Waters. Yes.
    Mr. Cabrera. I don't know. It depends upon what the public 
housing authority's policy is on rent setting. I think a great 
example of which percentage are evicted for, you know, Section 
8 vouchers are a great example. If the Section 8 voucher is 
presented to a HOPE VI deal that has been financed by low-
income housing tax credits or any low-income housing tax credit 
deal, there are a series of questions. The first one is, do you 
have a criminal record, because that's required by Federal law.
    Chairwoman Waters. I know. I know about that. I am just 
interested in the credit question, because I am aware that 
unfortunately many people in our society oftentimes run into 
credit problems.
    Mr. Cabrera. Right.
    Chairwoman Waters. And to have had a debt written-off, does 
not necessarily mean that it was your fault. It could have been 
fraud that was involved in the contract that was opposed by an 
attorney or someone that caused it to have to be written off. 
This is very tough criteria--
    Mr. Cabrera. Madam Chairwoman, I couldn't agree with you 
more.
    Chairwoman Waters. --to ask of poor people.
    Mr. Cabrera. I am not saying they are right.
    Chairwoman Waters. Yes.
    Mr. Cabrera. I am simply saying in terms of how they are 
asking it's very normal in this context.
    Chairwoman Waters. No. It is not normal in this context.
    Mr. Cabrera. No. No, I'm saying but Section 8 voucher 
holders are not typically evicted; that's once they are in.
    Chairwoman Waters. No, they are not.
    Mr. Cabrera. That's what I was trying to answer.
    Chairwoman Waters. I understand.
    Thank you very much. Let me go to Mr. Cleaver. Do you have 
one minute, Mr. Green? Oh, I'm sorry. Ms. Capito comes first. 
Excuse me. Ms. Capito.
    Mrs. Capito. Thank you, Madam Chairwoman.
    I want to just thank you all and I appreciate it. And we'll 
just continue working on this. It's very important to the 
safety and health of a lot of people here in this country.
    Thank you.
    Chairwoman Waters. Thank you very much.
    Mr. Green?
    Mr. Green. Yes, thank you, Madam Chairwoman.
    Madam Chairwoman, I would like to join you in supporting 
the moratorium and I believe it would be beneficial. Also, I 
would like to simply submit that whether by accident or design, 
it appears that the Federal Government is becoming the sole 
source of affordable housing. And, I wanted to have some 
response to this basic premise that while municipalities 
receive the funds, and by the way, when they open up a new 
project, there is a big, big, big parade. We have a new housing 
project.
    Never say that it's funded by Federal dollars. There seems 
to be the notion that municipalities are doing it, but it's 
actually the Federal Government that's funding it and it's not 
widely known. So I see someone who would like to respond and 
let's start with the doctor at the very end, Dr. Boston.
    Mr. Boston. Yes, Congressman, and it's a very astute 
observation and an important issue. One of the things that I 
have done as a part of my research is looking at the benefits 
and cost of revitalizing communities, and I shared with you 
that benefit. For the 6 communities that I looked at, on 
average, it was $126 million.
    One issue that I have raised with individuals who are 
involved in this area, both developers and others, is how can 
that surplus be used to generate greater affordability in the 
neighborhoods within which mixed-income developments have been 
constructed. Let me just give a brief example, and I know that 
time is short. But if you look at the neighborhood in Atlanta 
where Centennial Place is now, that was formerly Techwood 
Homes. That neighborhood had a violent crime rate of 37 times 
the national average. Now, that neighborhood has not only a new 
mixed-income development, but it has the Georgia Aquarium. It 
has the New World of Coca Cola and the Civil Rights Museum.
    That is a great deal of tax revenue that has been 
generated. So I think that there needs to be creative 
strategies, getting with private developers to figure out if 
these benefits are flowing to both the private and public 
sector, how can they be used to generate greater affordability 
in the communities surrounding it.
    Mr. Cabrera. Congressman, just to add to Dr. Boston's 
comments, HOPE VI by itself has never funded a unit. The low-
income tax credit has never funded a unit. Nor have private 
activity bonds ever funded a unit of affordable housing. All of 
those things together, together with local money and State 
money in a variety of pots are put together with private money 
to fund a unit. When we talk about HOPE VI, it's one part of a 
very big machine. I can say that with some glee because I have 
been in a lot of grand openings and a lot of HOPE VI grand 
openings. They have never forgotten about us.
    Mr. Green. You said they have never forgotten about it?
    Mr. Cabrera. Never forgot the Federal Government; they 
always said thank you, and we were always a big piece of the 
pie. But it should be the case that those grand openings are 
participatory and that they involve everybody involved in 
financing the construction of these units, because it takes a 
lot of the partners.
    Mr. Green. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you very much.
    Mr. Green, we are going to have to get to a telephone 
interview. I would like to thank all of the panelists for 
coming. The Chair notes that some members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to these 
witnesses and to place their responses in the record. This 
panel is now dismissed, and, without objection, I would like to 
enter into the record the criteria that is being used by 
private developers relative to the screening process for 
potential resident.
    With that, this committee is adjourned.
    [Whereupon, at 11:59 a.m., the hearing was adjourned.]


                            A P P E N D I X



                             July 29, 2009


[GRAPHIC] [TIFF OMITTED] 53249.001

[GRAPHIC] [TIFF OMITTED] 53249.002

[GRAPHIC] [TIFF OMITTED] 53249.003

[GRAPHIC] [TIFF OMITTED] 53249.004

[GRAPHIC] [TIFF OMITTED] 53249.005

[GRAPHIC] [TIFF OMITTED] 53249.006

[GRAPHIC] [TIFF OMITTED] 53249.007

[GRAPHIC] [TIFF OMITTED] 53249.008

[GRAPHIC] [TIFF OMITTED] 53249.009

[GRAPHIC] [TIFF OMITTED] 53249.010

[GRAPHIC] [TIFF OMITTED] 53249.011

[GRAPHIC] [TIFF OMITTED] 53249.012

[GRAPHIC] [TIFF OMITTED] 53249.013

[GRAPHIC] [TIFF OMITTED] 53249.014

[GRAPHIC] [TIFF OMITTED] 53249.015

[GRAPHIC] [TIFF OMITTED] 53249.016

[GRAPHIC] [TIFF OMITTED] 53249.017

[GRAPHIC] [TIFF OMITTED] 53249.018

[GRAPHIC] [TIFF OMITTED] 53249.019

[GRAPHIC] [TIFF OMITTED] 53249.020

[GRAPHIC] [TIFF OMITTED] 53249.021

[GRAPHIC] [TIFF OMITTED] 53249.022

[GRAPHIC] [TIFF OMITTED] 53249.023

[GRAPHIC] [TIFF OMITTED] 53249.024

[GRAPHIC] [TIFF OMITTED] 53249.025

[GRAPHIC] [TIFF OMITTED] 53249.026

[GRAPHIC] [TIFF OMITTED] 53249.027

[GRAPHIC] [TIFF OMITTED] 53249.028

[GRAPHIC] [TIFF OMITTED] 53249.029

[GRAPHIC] [TIFF OMITTED] 53249.030

[GRAPHIC] [TIFF OMITTED] 53249.031

[GRAPHIC] [TIFF OMITTED] 53249.032

[GRAPHIC] [TIFF OMITTED] 53249.033

[GRAPHIC] [TIFF OMITTED] 53249.034

[GRAPHIC] [TIFF OMITTED] 53249.035

[GRAPHIC] [TIFF OMITTED] 53249.036

[GRAPHIC] [TIFF OMITTED] 53249.037

[GRAPHIC] [TIFF OMITTED] 53249.038

[GRAPHIC] [TIFF OMITTED] 53249.039

[GRAPHIC] [TIFF OMITTED] 53249.069

[GRAPHIC] [TIFF OMITTED] 53249.070

[GRAPHIC] [TIFF OMITTED] 53249.071

[GRAPHIC] [TIFF OMITTED] 53249.072

[GRAPHIC] [TIFF OMITTED] 53249.073

[GRAPHIC] [TIFF OMITTED] 53249.074

[GRAPHIC] [TIFF OMITTED] 53249.075

[GRAPHIC] [TIFF OMITTED] 53249.076

[GRAPHIC] [TIFF OMITTED] 53249.077

[GRAPHIC] [TIFF OMITTED] 53249.078

[GRAPHIC] [TIFF OMITTED] 53249.079

[GRAPHIC] [TIFF OMITTED] 53249.040

[GRAPHIC] [TIFF OMITTED] 53249.041

[GRAPHIC] [TIFF OMITTED] 53249.042

[GRAPHIC] [TIFF OMITTED] 53249.043

[GRAPHIC] [TIFF OMITTED] 53249.044

[GRAPHIC] [TIFF OMITTED] 53249.045

[GRAPHIC] [TIFF OMITTED] 53249.046

[GRAPHIC] [TIFF OMITTED] 53249.047

[GRAPHIC] [TIFF OMITTED] 53249.048

[GRAPHIC] [TIFF OMITTED] 53249.049

[GRAPHIC] [TIFF OMITTED] 53249.050

[GRAPHIC] [TIFF OMITTED] 53249.051

[GRAPHIC] [TIFF OMITTED] 53249.052

[GRAPHIC] [TIFF OMITTED] 53249.053

[GRAPHIC] [TIFF OMITTED] 53249.054

[GRAPHIC] [TIFF OMITTED] 53249.055

[GRAPHIC] [TIFF OMITTED] 53249.056

[GRAPHIC] [TIFF OMITTED] 53249.057

[GRAPHIC] [TIFF OMITTED] 53249.058

[GRAPHIC] [TIFF OMITTED] 53249.059

[GRAPHIC] [TIFF OMITTED] 53249.060

[GRAPHIC] [TIFF OMITTED] 53249.061

[GRAPHIC] [TIFF OMITTED] 53249.062

[GRAPHIC] [TIFF OMITTED] 53249.063

[GRAPHIC] [TIFF OMITTED] 53249.064

[GRAPHIC] [TIFF OMITTED] 53249.065

[GRAPHIC] [TIFF OMITTED] 53249.066

[GRAPHIC] [TIFF OMITTED] 53249.067

[GRAPHIC] [TIFF OMITTED] 53249.068

[GRAPHIC] [TIFF OMITTED] 53249.080

[GRAPHIC] [TIFF OMITTED] 53249.081

[GRAPHIC] [TIFF OMITTED] 53249.082

[GRAPHIC] [TIFF OMITTED] 53249.083

[GRAPHIC] [TIFF OMITTED] 53249.084

[GRAPHIC] [TIFF OMITTED] 53249.085

[GRAPHIC] [TIFF OMITTED] 53249.086

[GRAPHIC] [TIFF OMITTED] 53249.087

[GRAPHIC] [TIFF OMITTED] 53249.088

[GRAPHIC] [TIFF OMITTED] 53249.089

[GRAPHIC] [TIFF OMITTED] 53249.090

[GRAPHIC] [TIFF OMITTED] 53249.091

[GRAPHIC] [TIFF OMITTED] 53249.092

[GRAPHIC] [TIFF OMITTED] 53249.093

[GRAPHIC] [TIFF OMITTED] 53249.094

[GRAPHIC] [TIFF OMITTED] 53249.095


</pre></body></html>
